                                  CLOSEOUT FOR M-96100036

        On 26 September 1996, OIG received an anonymous message' that stated that
allegations of misconduct and the identity of the subjecf would be found
      le            alleged that the subject prevented scientists at the institution4 from using
equipment purchased under an NSF award.5

        OIG reviewed               the NSF award, and other information that was applicable to
equipment              with funds provided by NSF.                   stated that a faculty member6
claimed she was recruited to the institution as a visiting professor, in part, to use the
equipment, but that the subject "barely allowed her to touch" it. According
faculty and students at the institution said the subject controlled and continued to control the
use of the equipment.               said that one of the co-PIS' on the NSF award agreed that the
equipment was "being used very little - almost zero." In addition,               the vice chairman8
of the subject's department at the institution as stating that the equipment was "too valuable
and useful to be used so little. There's a waiting list at other universities to use [the
equipment], but here it's hardly ever working." Finally, according                      a review of
the subject's department conducted the previous year by three scientists, one from the
institution and two from outside organizations, reported problems with access to the equipment
by some scientists and recommended hiring a technician to improve the efficiency of its use
and "avoid some of the hard feelings that the present situation has caused."

      OIG's review of the case documenl and regulations showed that: 1) the equipment
purchased under the award is owned by the institution; 2) the NSF award was funded years
ago and was closed years ago; 3) according to NSF's Grant Policy Manual and the Office of
Management and Budget Circular A-1 10 in effect at the time of the award, as the owner of the


' The message was a 26 September 1996 e-mail from "anonymous-www-mailer"to Dr. James Zwolenik, Assistant




                                              page 1 of 2                                     M 96-36
                               CLOSEOUT FOR M-96100036

equipment, the institution is responsible for its maintenance and utilization, and the retention of
relevant records for only 3 years after NSF received the final project report; and 4) the NSF
program made the award knowing there were concerns about the equipment's maintenance by
the subject and the co-PIS. There is evidence that the equipment was not maintained;
                         the vice chairman said that the equipment was "hardly ever working."

       We concluded that, in this case,.no further inquiry by our office into the allegation that
the subject prevented scientists from using the equipment was practical because so much time
had elapsed since the award closed diminishing both the likelihood that records pertaining to
the equipment's usage would be available and that individual memories of events years ago
would be reliable. Moreover, because the evidence suggests that poor management practices
contributed to the equipment's lack of availability, we concluded that this would be better
handled as a management matter. There is some question as to whether the program presently
has ongoing management responsibility for the equipment, but because
mentioned ongoing concerns about access to high tech equipment within the department, OIG
mentioned this concern to the program.

       This case is closed and no further action will be taken.

cc: staff scientist, AIG-Oversight, legal, IG




                                            page 2 of 2
